TUESDAY, APRIL 6, 2021
CASE NO.: SC21-319
Lower Tribunal No(s).:
062005CF014414A88810;
062004CF010827A88810
CHARLENE ROSA

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

The petition for writ of mandamus is hereby dismissed
because this Court generally will not consider the repetitive
petitions of persons who have abused the judicial processes of the
lower courts such that they have been barred from filing certain
actions there. See Pettway v. State, 776 So. 2d 930, 931 (Fla.
2000). No motion for rehearing qr reinstatement will be entertained
by this Court.
POLSTON, LABARGA, LAWSON, MUNIZ, and COURIEL, JJ.,
concur.
A True Copy
Test:

222
John A. Tomasi.no
Clerk, Supreme Court
ks
Served:
CELIA TERENZIO
CHARLENE ROSA
HON. BRENDA D. FORMAN, CLERK

Supreme
FRIDAY, MARCH 26, 2021
CASE NO.: SC21-319

Lower Tribunal No(s).:
062005CF014414A88810;
062004CF010827A88810
CHARLENE ROSA
Petitioner(s)

vs.

STATE OF FLORIDA
Respondent(s)

The order of this Court dated March 25, 2021, granting
Petitioner’s motion to amend is hereby vacated.
A True Copy
Test:

John A, Tomasino
Clerk, Supreme Court

ks

Served:
CELIA TERENZIO
CHARLENE ROSA

THURSDAY, MARCH 25, 2021
CASE NO.: SC21-319

Lower Tribunal No(s).:
062005CF014414A88810;
062004CF010827A88810
CHARLENE ROSA

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

Petitioner’s motion to amend petition for mandamus is hereby
granted and the amended petition was filed with this Court on
March 24, 2021.
A True Copy
Test:

John A. Tomasmo
Clerk, Supreme Court

ks
Served:
CELIA TERENZIO
CHARLENE ROSA

vMj)

**=(»*»:

Supreme Court of Jfloriba
Office of the Clerk
500 South Duval Street
Tallahassee, Florida 32399-1927
Phone Number: (850) 488-0125

John A. Tomasino
Clerk
Mark Clayton
Chief Deputy Clerk
Julia Breeding
Staff Attorney

www.floridasupremecourt.org

ACKNOWLEDGMENT OF NEW CASE
March 3, 2021
RE:

CHARLENE ROSA

vs.

STATE OF FLORIDA

CASE NUMBER: SC21-319
Lower Tribunal Case Number(s): 062005CF014414A88810;
062004CF010827A88810
The Florida Supreme Court has received the following documents reflecting a
filing date of 1/19/2021.
Writ of Supervisory Control
The above listed writ has been treated as a Petition for Writ of Mandamus.
The Florida Supreme Court's case number must be utilized on all pleadings and
correspondence filed in this cause.
tr
cc:
CELIA TERENZIO
CHARLENE ROSA
HON. BRENDA D. FORMAN, CLERK

Subject:Activity in Case 0:21-cv-61478-RNS Rosa v. Levenson Order Dismissing Case
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
_Irpp piprtronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access tees apply to aLTuth'er-trsBrsT~i'-o-avoi-d—Lat-e-r-----------------charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 7/26/2021 12:39 PM EDT and filed
on 7/26/2021
Case Name: Rosa v. Levenson
Case Number: 0:21-cv-61478-RNS
Filer:
WARNING: CASE CLOSED on 07/26/2021
Document Number: 4

Docket Text:
ORDER DISMISSING CASE. The Court dismisses
the Petition (ECF No. [1]) for lack of jurisdiction. The Clerk shall close
this case and mail a copy of this order to the Petitioner. All pending motions
are denied as moot. Signed by Judge Robert N. Scola, Jr on 7/26/2021.
<I>See attached document for full details.</I> (daa)

0:21-cv-61478-RNS Notice has been electronically mailed to:
0:21-cv-61478-RNS Notice has not been delivered electronically to’those listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Charlene Walker Rosa
L06814
Lowell Annex
Inmate Mail/Parcels
11120 NW Gainesville Road
Ocala, FL 34482

Service list page 1 only

K &

U.S. District Court - Southern District of Florida

Charlene Walker Rosa L06814
Lowell Annex
Inmate Mail/Parcels
11120 NW Gainesville Road
Ocala, FL 34482
Case: 0:21-cv-61478-RNS #4

4 pages

Mon Jul 26 12:51:36 2021

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Case: 0:21-cv-61478-RNS

Document #: 4 Entered on FLSD Docket: 07/26/2021
of 2

Page 1

United States District Court
---------------- for-t-he---------------Southern District of Florida

Charlene Walker Rosa, Petitioner

)

Civil Action No. 21-61478-Scola

v.
)

Jeffrey Levenson, Respondent.
Order Dismissing Case
The Petitioner, a state prisoner, has filed a purported Petition for Writ of
Mandamus (“Petition”). ECF No. 1. As discussed below, the Court con-strues-th^e
Petition as a petition for writ of habeas corpus under 28 U.S.C. § 2254 and
dismisses it as successive.
The Petition alleges several constitutional defects in Broward County
Case Number 04-10827CF10A. These include: ineffective assistance of counsel;
“wrongful conviction” based on false evidence and prosecutorial misconduct;
equal protection and due process violations; and judicial bias. (See, e.g., id. at
1-4, 10-13). Because, despite its label, the Petition clearly reflects an attempt
to challenge the constitutionality of said conviction, the Court construes.it as a
§ 2254 petition. See § 2254(a); see also United States v. JordanfUTS'F^.d 622,
624-25 (11th Cir. 1990) (“Federal courts have long recognized that they have
an obligation to look behind the label of a motion filed by a pro se inmate . . .
The Petitioner previously filed a § 2254 petition challenging said
conviction that the Court dismissed on the merits and for which the Eleventh
Circuit denied a certificate of appealability. Rosa v. State of Florida et ah, No.
16-cv-62332-Bloom (S.D. Fla. 2016), ECF Nos. 67, 78, 96.
“Before a second or successive [§ 2254 petition] is filed in the district
court, the [petitioner] shall move in the appropriate court of appeals for an
order authorizing the district court to consider the [petition].” 28 U.S.C. §
2244(b)(3)(A). Without authorization from the appropriate court of appeals, a
“[district [c]ourt [is] without jurisdiction to entertain” a “‘second or successive’
petition challenging [the inmate’s] custody[.]” Burton v. Stewart, 549 U.S. 147,
157 (2007). “[S]econd or successive status only attaches to a judgment on the
merits.” Boyd v. United States, 754 F.3d 1298, 1302 (11th Cir. 2014) (citations
omitted). “[Dismissal of a habeas corpus petition as procedurally defaulted
constitutes, as a matter of law, an adjudication on the merits for the purposes
of § 2244(b)(3)(A)’s second or successive petition requirements.” Johnson v.
&

oase:

uzi-cv-oi^/o-kim^

uucuitieiu

h:

^

crueieu un r-LCDU uuCKei.;

u//zo/zuzj.

ray a z

Of 2

Alabama, No. 1:12-CV-1030-TMH, 2013 WL 776251, at *1 (M.D. Ala. Jan. 16,
2013) (citations omitted), report and recommendation adopted, 2013 WL
775382 (M.D. Ala. Feb. 28, 2013).
Here, the Court dismissed the Petitioner’s prior petition on the merits
and she has not obtained the necessary authorization from the Eleventh
Circuit. Furthermore, she attacks the same conviction that she attacked in her
prior petition. Thus, the Court lacks jurisdiction over the Petition. i
Accordingly, the Court dismisses the Petition (ECF No. 1) for lack of
jurisdiction. The Clerk shall close this case and mail a copy of this order to
the Petitioner. All pending motions are denied as moot.
Done and ordered, in chambers, in Miami, Florida, on July 26, 2021.

Robert N. Scola, Jr.
United States District Judge

1 Because the Petition is rambling and conclusory and presumably untimely, neither a direct
transfer to the Eleventh Circuit under 28 U.S.C. § 1631 nor a stay is proper. Cf. Guenther u.
Holt, 173 F.3d 1328, 1330-31 (11th Cir. 1999).
2

Subject:Activity in Case 0:21-cv-61441-WPD Rosa v. Levenson Clerks Notice to Filer re:
Electronic Case
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
Tree electronic copy of^triiuc'uments-ftl-ed-e-l-e-ctro-n-rcal.-l7—i-f-r-eeei-p-t--L-s-r-eqyi-r-ed-by-l-aw-eT—
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 7/16/2021 12:59 PM EDT and filed
-on 7/16/2021
Case Name: Rosa v. Levenson
Case Number: 0:21-cv-61441-WPD
Filer:
WARNING: CASE CLOSED on 07/16/2021
Document Number: 13
13(No document attached)
Docket Text:
Clerks Notice to Filer re: Electronic
Case. Case administratively closed - Case opened in error <font
color=red>No further entries will be made on this case</font>. (mrl)

U.S. District Court - Southern District of Florida

Charlene Rosa
Lowell Annex
Inmate Mail/Parcels
11120 NW Gainesville Road
Ocala, FL 34482
Case: 0:21-cv-61441-WPD #13

2 pages

Fri Jul 16 13:22:03 2021

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
RECE8VED
See reverse side

SEP - 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S _

U.S. District Court - Southern District of Florida

Charlene Rosa
Lowell Annex
Inmate Mail/Parcels
11120 NW Gainesville Road
Ocala, FL 34482
Case: 0:21-cv-61441-WPD #2

2 pages

Thu Jul 15 16:51:47 2021

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Subject:Activity in Case 0:21-cv-61441-WPD Rosa v. Levenson Clerk's Notice of Judge
Assignment
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 7/15/2021 4:29 PM EDT and filed
on 7/13/2021
Case Name: Rosa v. Levenson
Case Number: 0:21-cv-61441-WPD
Filer:
Document Number: 2
2(No document attached)
Docket Text:
Clerks Notice of Judge Assignment to
Judge William P. Dimitrouleas and Magistrate Judge Lurana S. Snow,
(ebz)

v

